<html>
<title> - JORJANI NOMINATION</title>
<body><pre>[Senate Hearing 115-517]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-517

                           JORJANI NOMINATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   TO

CONSIDER THE NOMINATION OF AIMEE KATHRYN JORJANI TO BE CHAIRMAN OF THE 
               ADVISORY COUNCIL ON HISTORIC PRESERVATION

                               __________

                              MAY 15, 2018

                               __________


		[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
		

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-284                   WASHINGTON : 2019       


        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Jorjani, Aimee Kathryn, nominated to be Chairman of the Advisory 
  Council on Historic Preservation...............................     3

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Bradley, Betsy H.:
    Letter for the Record........................................    24
Cantwell, Hon. Maria:
    Opening Statement............................................     2
Gardner, Hon. Cory:
    Statement for the Record.....................................    25
Jorjani, Aimee Kathryn:
    Opening Statement............................................     3
    Written Testimony............................................     5
    Responses to Questions for the Record........................    20
Kraus, D. Bambi:
    Letter for the Record........................................    26
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Scarlett, Hon. Lynn:
    Letter for the Record........................................    27
Walker, Hon. Scott:
    Letter for the Record........................................    29

 
                           JORJANI NOMINATION

                              ----------                              


                         TUESDAY, MAY 15, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here to consider the nomination of Aimee Kathryn 
Jorjani to be the Chair of the Advisory Council on Historic 
Preservation (ACHP). Her nomination is to complete a four-year 
term that expires on June 10, 2021, just a little over three 
years from now.
    For those who are not familiar with it, the Advisory 
Council on Historic Preservation is an independent federal 
agency that Congress created back in 1966 through the passage 
of the National Historic Preservation Act. According to its 
mission statement, the Council ``promotes the preservation, 
enhancement, and sustainable use of our nation's diverse 
historic resources, and advises the President and the Congress 
on national historic preservation policy.'' While it may be 
relatively unknown to many Americans, this is an important 
Council.
    In addition to the advice that it provides to Congress and 
the President, the Council oversees the Section 106 review 
process, which determines whether projects that receive federal 
funds, or require federal permits, will affect properties 
listed on, or eligible for inclusion in, the National Register 
of Historic Places.
    With the right leadership, this Council will be an advocate 
for the historic preservation of America's most important 
sites. It will also be a watchdog of sorts, providing 
accountability to ensure the National Historic Preservation Act 
is not used to delay or halt projects and investments.
    This is the first time we have had a nominee for Chair of 
the Advisory Council on Historic Preservation before the 
Committee. The reason we are considering this nomination this 
morning is that we passed the National Park Service Centennial 
Act at the end of 2016. Senator Portman led that, which amended 
previous law to upgrade the Chairman to a full-time position, 
thus subject to Senate confirmation.
    The President's choice for Chair, Aimee Jorjani, appears to 
be very well-qualified for this role, both in education and 
professional experience. She has completed a master's degree in 
historic preservation. She has previously served at the 
Department of the Interior, including six years as Special 
Assistant for Historic Preservation, during the Bush 
Administration. During that time, she was also selected as the 
first Department-wide Historic Preservation Officer.
    Ms. Jorjani, welcome to the Committee. Thank you for your 
willingness to serve and, after Senator Cantwell provides her 
remarks, we will welcome your comments today as well as the 
introduction of any family that you may have with you.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and welcome, Ms. 
Jorjani and your family.
    We have not had a lot of time here on the Committee 
overseeing the Advisory Council on Historic Preservation, so I 
am pleased to have this opportunity to focus on it and the 
Council this morning.
    As you mentioned, this is the first time the Committee has 
considered a nomination for Chair of the Council. The Council 
has been around for more than 50 years and it was established 
by the National Historic Preservation Act of 1966, which you 
mentioned, which was written by our former Chair, Senator Scoop 
Jackson. Senator Jackson eloquently said, ``Our great nation 
draws much of its strength from sound traditions and culture.'' 
He believed we must build for the future, ``in harmony, with 
the nobility and the greatness of the past.''
    The purpose of the Historic Preservation Act was to ensure 
that our historic foundation would be preserved and that our 
future would be built in harmony with this greatness.
    The Advisory Council on Historic Preservation was created 
as an independent agency to ensure that federal agencies take 
our national heritage into account before they take actions 
that might destroy or substantially alter nationally 
significant historical sites.
    The Council's job is to ensure that federal agencies are 
good stewards of our national heritage and that they preserve 
and protect historic properties they own and control. This is 
an important mission.
    For over 50 years, the Chair of the Advisory Council worked 
part-time and without Senate confirmation. So I am pleased that 
you are here this morning after the law changed to have your 
nomination heard.
    I think this change is in keeping with the importance of 
the office and its mission. I hope the change will increase the 
stature and independence of the Council and strengthen their 
voice within this Administration.
    I look forward to hearing your comments this morning. 
Again, congratulations on your nomination.
    The Chairman. Thank you, Senator Cantwell.
    Ms. Jorjani, welcome to the Committee. We are pleased to 
have you with us.
    If you would like to provide your comments, and then we 
will have an opportunity to ask what questions we may have. 
Again, welcome and welcome to your family.

STATEMENT OF AIMEE KATHRYN JORJANI NOMINATED TO BE CHAIRMAN OF 
         THE ADVISORY COUNCIL ON HISTORIC PRESERVATION

    Ms. Jorjani. Thank you.
    Chairman Murkowski and Senator Cantwell, Senator Portman, 
members of the Committee, it is my honor to appear today before 
you as the President's nominee of Chairman of the Advisory 
Council on Historic Preservation. I am delighted to be a part 
of this hearing during the month of May, which is typically 
celebrated as Preservation Month.
    I am joined this morning by my son, Nicholas, daughters, 
Lucy and Flora, and my husband. When not at the hockey rink or 
little league field, we are often a package deal at many parks, 
museums and historic sites wherever we can get. Today, they 
lucked out to miss school to be with me.
    My fascination with historic preservation blossomed while 
growing up in Milwaukee, Wisconsin, admiring the many Cream 
City brick buildings built by German and Polish-Americans. 
Cream City was named for the light color of the local clay and 
as a tribute to the city's frothy brewing heritage.
    While many of those buildings sat underutilized in my 
youth, I always saw beauty in them. Many of those buildings 
have since been restored or re-adapted through historic 
preservations and incentives spurring economic development and 
keeping history alive.
    As the daughter of a Vietnam veteran and a high school 
library assistant who taught their children a strong work 
ethic, I was proud to become, be the first Mikolajek in my 
family to earn a degree. I later worked for a then-junior 
member of Congress, Paul Ryan, from Wisconsin. Working for 
Speaker Ryan afforded me the honor of serving my fellow 
Wisconsinites. Witnessing history firsthand alongside Speaker 
Ryan on September 11th is something I will never forget. That 
time instilled in me a greater understanding of the importance 
of learning American history and preserving places associated 
with it.
    I was then blessed with the opportunity to preserve--pursue 
an interest in historic preservation as the advisor to the 
Deputy Secretary at the Department of the Interior. I had a 
unique vantage point working directly with the Chief Operating 
Officer of a vast cabinet agency. I saw how she managed and 
communicated effectively and efficiently. For the lead agency, 
I was charged with overseeing the implementation of the 
Preserve America program.
    My portfolio allowed me to work in close coordination with 
the ACHP, the National Park Service and other agencies and 
partners. I worked on budget justifications for the Historic 
Preservation Fund, and I worked to create a justification 
utilizing the types of services Tribal Historic Preservation 
Officers provide in assuming their responsibilities as an 
expression of tribal sovereignty.
    I was intimately involved in all seven rounds of the 
Preserve America grants assembling interagency review teams and 
ensuring consistency in their reviews. The program was a tool 
to utilize local heritage in a productive and sustainable way. 
During that time, we enabled a network of over 900 communities 
in all 50 states.
    I managed Deputy Secretary Scarlett's role as Co-Chair for 
the Interagency Preserve America Steering Committee during 52 
monthly meetings. I achieved this while also serving as 
Interior's first Historic Preservation Officer and managing the 
responsibilities of eight bureaus in complying with the 
Preserve America Executive Order. Through these management 
experiences, I developed a strong working knowledge of the 
National Preservation Program and its decentralized structure. 
I also served as Preserve America's point of contact with CEQ, 
the East Wing, OMB and Congress. I was later part of the effort 
to successfully authorize Preserve America into law.
    As the inevitable end to my tenure at Interior was 
approaching, I knew I needed an advanced degree to continue 
working in the field I learned to love so dearly. I pursued my 
Master's in Historic Preservation while starting and raising my 
young family. I have managed to fulfill my dream of being a mom 
while also remaining actively engaged in the pursuit of my 
interest in historic preservation.
    Along the way, I learned through various projects the 
challenges partners face in implementing the National 
Preservation Program on behalf of the Federal Government. I 
served on two boards of national preservation organizations, 
offered guidance on federal task force and have dragged my 
children to many, many historic sites of interest.
    If confirmed, I look forward to working with the Congress, 
the Administration and stakeholders to ensure that cultural 
resources are considered at the earliest stages of project 
planning to avoid process delays. I also look forward to 
examining ways to bring the digitalization of historic property 
information to the 21st century to create more efficiencies for 
project planning.
    Thank you for this opportunity to testify. I would be happy 
to answer any questions the Committee may have.
    [The prepared statement of Ms. Jorjani follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Jorjani.
    I have to start off with an apology. We neglected to have 
you stand and be sworn which is the requirement before the 
Committee for all nominees.
    At this point in time, I would ask that you stand and raise 
your right hand.
    Ms. Jorjani. Yes.
    The Chairman. Do you solemnly swear that the testimony you 
are about to provide the Senate Committee on Energy and Natural 
Resources shall be the truth, the whole truth and nothing but 
the truth?
    Ms. Jorjani. Yes.
    The Chairman. You can go ahead and be seated.
    Will you be available to appear before this Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Ms. Jorjani. Yes.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create the appearance of such a conflict should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Jorjani. No.
    The Chairman. Are you involved or do you have any assets 
held in a blind trust?
    Ms. Jorjani. No.
    The Chairman. Thank you.
    Again, your opening statement that you have provided us as 
well as your full written statement are incorporated as part of 
the record.
    Let me ask a very broad question to you. As has been noted 
by both myself and Senator Cantwell, you are the first person 
to be nominated to chair the Advisory Council on Historic 
Preservation elevated from a part-time chair to a full-time 
role. The first now to become subject to Senate confirmation. 
The intention with the passage of the National Park Service 
Centennial Act was to really strengthen the advisory and the 
advocacy role of the Advisory Council on Historic Preservation 
in, not only working with the Congress and the Administration, 
but with the states as well.
    The general and more broad question to you this morning is 
how do you intend to take this newly defined role and raise the 
profile of the Advisory Council and just what you view as a 
newly defined or a redefined role for the Advisory Council on 
Historic Preservation?
    Ms. Jorjani. Thank you for that question.
    As the first leader, it is important that I set a mark as 
to how the agency is run and viewed in its advisory role and as 
an independent agency that does not report to another greater 
cabinet level agency.
    I do--will adhere to the operating procedures as set by the 
board membership. The board membership sets the policy. We've 
got an Executive Director that manages the staff, but in my 
role, I will be implementing the policy working with the 
members of the Committee.
    What I learned through Preserve America was the interagency 
collaborations that took place so regularly, then during my 
time at the Interior Department, and I hope to cultivate those 
relations again and having a seat at the table for the Federal 
One decision, the MOU that was recently signed, especially as 
it relates to the infrastructure possibilities. This position 
now allows for a full-time position at that table.
    The Chairman. Will you commit to working with those of us 
here in Congress on important policies like tribal consultation 
and historic review processes?
    Ms. Jorjani. Yes, I very much look forward to doing that.
    The Chairman. Good, good.
    Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I am so delighted to meet your family and so impressed that 
your son, at the mention of Lewis and Clark, was able to quote 
them, ``Ocean in view.'' Obviously you are living a very 
historic shared experience with your family.
    On that point, the Chair just asked about Native American 
sites, and we have just had this big discussion as it related 
to the Dakota Access Pipeline. What role will you play in 
preserving the places that are sacred or essential to 
traditional way of life for Native Americans, Alaska Natives, 
and Native Hawaiians?
    Ms. Jorjani. Thank you.
    I'm aware that the ACHP has done a lot of work in promoting 
effective and efficient tribal consultation. The biggest thing 
is that agencies get involved with tribes very early in the 
process. The law requires them on a government-to-government 
basis.
    One of my priorities will certainly be to do what the ACHP 
can do to improve any of these efficiencies within the process. 
I look forward to working with one of our board members and a 
fellow Goucher graduate who is our tribal member on learning 
more about working efficiently and effectively and respectfully 
with tribes.
    Senator Cantwell. Well, you will be an independent voice, 
if needed, for them.
    Ms. Jorjani. Certainly, yes.
    Senator Cantwell. Thank you.
    What changes do you see in directing the Council, 
particularly in relation to the Executive Director's 
traditional role of overseeing and directing the Council's 
professional staff?
    Ms. Jorjani. There is a current review with the operating 
procedures to update them and then there will also be a 
strategic plan process that it needs. It's required of a 
revision at the moment.
    So, those are the first few things, if confirmed, I look 
forward to working with the board membership on.
    Senator Cantwell. Okay.
    And what are some of your goals from a policy perspective 
or programs that you want to pursue?
    Ms. Jorjani. My--a program near and dear to my heart, of 
course, is the Preserve America initiative. It simply offered a 
variety of tools for all Americans to share their stories and 
histories and then, of course, there's the Save America's 
Treasures program that has recently been refunded.
    Working along the lines with the Historic Preservation Fund 
and the tools offered within that, I hope to work with states 
and tribes and their needs in implementing the Federal 
Preservation program on behalf of the Federal Government.
    Senator Cantwell. So do you think you will include 
recommendations, maybe, about future sources of investment as 
well or----?
    Ms. Jorjani. Certainly, I would like to, you know, gather a 
group of sorts with fresh eyes to review some of these issues 
as they arise related to efficiencies, accounting for historic 
preservation grants, a variety of tools that states could 
better utilize such as digitization efforts, all this, you 
know, in the spirit of Section 106 efficiencies.
    Senator Cantwell. Well, thank you for mentioning 
digitization because that is exactly what I had in mind.
    We do such a good job of preserving various things, but 
then we have limited ourselves to the onsite communication 
which after a while, you know, a couple of decades is just not 
as comprehensive as we could be in today's era.
    I hope that you will take that charge on aggressively 
because I think there is so much that people would like to 
know. It is almost as if we could just open up a whole new 
educational experience if we just had the right resources and 
communication.
    There is just so much more we could convey about these 
sites, even the example you gave of your own love in your home 
State of Wisconsin. There is so much there you could go on and 
on and on about if we had that kind of connectivity to it.
    I will look forward to hearing your recommendations on 
that.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Portman.
    Senator Portman. Thank you, Madam Chair.
    To both of you, thanks for holding this hearing because, I 
think, this is a really important topic, but also because this 
is a historic moment.
    To your children who are here today, being very patient and 
polite, your mom is the first Chair ever of this organization. 
We are making history as we sit here this morning because, I 
believe, she is going to be confirmed and she will actually get 
the job which is what this is all about.
    As you know, the National Park Service Centennial Act that 
the Chair talked about earlier creates this position as a full-
time, professional position. I think that is really important.
    You know, John Nau, who currently serves on the Foundation, 
he was one of the strong advocates that has served as Chair in 
the past as a volunteer, realizing that it really requires 
somebody to be full-time engaged and confirmed by the Senate so 
we have more opportunity to dialogue with you and more 
accountability as a result.
    I am delighted you are here and that you were chosen by the 
Administration, and I think you are a great pick. I think you 
have the right academic credentials. That little Paul Ryan 
thing is, you know, I won't hold that against you.
    [Laughter.]
    No, seriously, that is great too and great experience at 
the Department. So we are proud of you.
    I know that you know this, but in Ohio we've got a lot of 
places on the National Register of Historic Places. In fact, we 
have about 4,000 of them and one that someday maybe you will 
visit is called the Golden Lamb Inn, the oldest continuous 
operating business in Ohio that has been in my family for 92 
years. I remember when my mom applied with the register to be 
named and went through the whole process, and we are very proud 
of that structure and in keeping it going and historic.
    One of the things that you've got to figure out is how to 
deal with the priority of historic preservation along with the 
economic realities which is that we also want to be sure that 
infrastructure, energy, broadband and other developments 
continue and can be done consistent with historic preservation.
    There is an issue that you are going to come up against on 
the Advisory Council which is the approval of the FCC, the 
Federal Communication Commission, program on the so-called, 
Twilight Towers. These are the cell towers that were built 
during this period between 2001 and 2004 and they are, sort of, 
orphans. They are not considered part of the old regime, or the 
new regime, necessarily. Those that were built during that time 
have not had the FCC develop rules, fully develop rules, 
regarding the administration of the historic preservation 
reviews under Section 106 of the National Historic Preservation 
Act.
    One of the concerns that we have in rural Ohio, 
particularly--and I am sure my colleagues from West Virginia, 
as well as Alaska and Washington, have the same issue--is how 
are we going to build out broadband services--rural broadband 
is a big priority of mine and it is in our state, particularly, 
again, to rural parts of our state.
    We've got about 4,200 twilight towers across the country 
and this FCC program comment which was approved by unanimous 
consent or unanimous bipartisan vote, I think, presents an 
opportunity to both have historic preservation and expand these 
internet coverage opportunities, including rural broadband by 
making it easier to co-locate wireless services on existing 
infrastructure.
    Since you will be required to vote on this comment before 
it goes into effect, I wanted to ask you what your views are on 
it. Do you agree that a solution is needed to clarify the 
status of twilight towers and make it easier to leverage these 
existing structures for broadband development?
    Ms. Jorjani. I do agree this needs to be worked with. The 
Section 106 process is there to accommodate for these needs and 
so whether it is wireless or infrastructure energy 
developments, it can operate, you know, the ACHP's board 
membership will work with--it is an issue I have not worked on 
personally. I have heard a lot of it. I certainly look forward 
to finding a solution to this set of towers that were built 
during this period that slid, I guess, by without the Section 
106 review process. The infrastructure is there. It would be a 
shame not to utilize it. So I look forward to working and 
examining this issue.
    Senator Portman. Great.
    Well, we look forward to working with you. Please stay in 
touch with us on it.
    There are about a million Ohioans who do not have internet 
access to their home, and we are pushing on that. This is one 
way to ensure that the co-location, done properly, can provide 
that access. So we look forward to working with you.
    You are also going to be a member of the Federal Permitting 
Council.
    Ms. Jorjani. Yes.
    Senator Portman. I hope you will take that role seriously 
and attend those meetings. This is legislation that we passed, 
gosh, about three years. Senator Murkowski and I are the co-
authors of that and we are proud of the fact that the Council 
is now meeting, the Interagency Council. But we have to be sure 
that your voice is heard there. I hope you will be involved in, 
again, this is an effort to have a permitting process that 
makes sense, that can be streamlined and meeting the goals of 
historic preservation while doing so, not harming the economic 
development that all of us want to see. Will you commit to 
attending those meetings and being engaged in that as well?
    Ms. Jorjani. Yes, and I appreciate all the work you've done 
to create this Steering Council.
    Senator Portman. Great.
    Well, again, congratulations to you and to your family.
    Chairman Jorjani is going to sound good, or Chair Jorjani 
or Chairwoman Jorjani. I am not sure how you are going to do 
it, but we look forward to working with you.
    Ms. Jorjani. Thank you, Senator.
    Senator Portman. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Portman.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Ms. Jorjani, tell me a little bit more about your 
experience and your level of experience and exposure to the 
tribal consultation process.
    Ms. Jorjani. I have not worked personally with tribal 
consultation. I know the Advisory Council has produced a wide 
range of guidance documents related to it.
    I certainly look forward to working with our Native 
American member on the board, and I've worked a little bit as 
it relates to----
    Senator Heinrich. You recognize that that is a government-
to-government process though, correct?
    Ms. Jorjani. Yes, yes.
    Senator Heinrich. And I raise that simply because there 
have been efforts within the Administration in just recent days 
in other agencies to redefine that relationship as one of race 
rather than of governance. I think that is a very fundamental 
issue with respect to this position.
    Ms. Jorjani. Yes, I view it as a government-to-government 
relationship.
    Senator Heinrich. What is your level of knowledge about the 
Chaco Canyon National Historical Park? It is a world heritage 
site in New Mexico in the Greater Chaco area. Are you familiar 
with a little bit of the history there?
    Ms. Jorjani. A little bit.
    Senator Heinrich. I raise that because we have had a buffer 
zone in place, sort of a detente in recent years, within ten 
miles of Chaco Canyon National Historical Park that has served 
us well.
    There is a lot of oil and gas. It is in the San Juan Basin 
which is a highly productive energy basin. The concern has 
been, certainly, one of protecting the integrity of that site 
and to not have high intensity industry within an obvious line 
of sight of the park.
    The BLM actually offered some leases inside the buffer 
recently which, sort of, broke the detente and to his credit at 
the urging of our delegation, Secretary Zinke announced pulling 
those potential leases back.
    I would just urge you to familiarize yourself with this. I 
think it is going to be a very big historical issue moving 
forward. I am going to continue to engage with New Mexico's 
tribes and pueblos about Greater Chaco's future, and I intend 
to offer legislation to formalize the mineral withdrawal inside 
that buffer zone, at least with respect to the BLM lands. But I 
just urge you to take a close look at that. I think it may be 
something that is coming your way in your future role and I 
urge you, good luck.
    Ms. Jorjani. Thank you.
    The Chairman. Thank you, Senator.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair.
    Thank you for your willingness to serve and thank you for 
the visit last week in my office. I, too, have been admiring 
your children. They are just great.
    I want to, kind of, go to the same place that Senator 
Portman did, in terms--and we, kind of, touched on this a 
little bit when you were in the office because like Ohio, West 
Virginia has--broadband deployment is lacking and a lot of 
laying the fiber and you can encounter permitting difficulties.
    There are less obvious situations, for instance, not so 
much that you are putting a facility on or in a site that is 
considered part of the historic preservation, but you are 
within the viewshed of the--so it is a more expanded view.
    I understand that in March the FCC issued a report stating 
that the deployment of next generation 5G wireless does not 
constitute a federal undertaking. Do you agree with the FCC's 
assessment here? And do you know if the ACHP participated with 
the FCC in this report because I understand there is another 
report coming. Anything you know about that?
    Ms. Jorjani. I am assuming ACHP worked with FCC in 
expressing their views on that, what became an ultimate 
decision away from the Section 106 process and this is an 
ongoing issue and if confirmed, I certainly look to--will be 
interested in learning more about this and seeing what 
additional tools could be available.
    Senator Capito. So would you pledge to work with the 
stakeholders and, I mean, you basically have just said this, 
but just repeating that to formulate best practices. Obviously, 
this is something, as you are reaching those last miles for 
broadband deployment, any stumbling blocks are very difficult 
to get over and expensive. Working together, I think, makes a 
lot of sense.
    Ms. Jorjani. I certainly look forward to working with 
stakeholders on this.
    Senator Capito. Good. Thank you.
    We talked a little bit about your counterparts in states. 
Certainly, Susan Pearson in West Virginia has been in her 
position as the State Historic Preservation Officer and does a 
great job.
    What kind of relationship do you think you need to be 
building with our states and how can you be of help to them and 
how can they be of help to you?
    Ms. Jorjani. If confirmed, I very much look forward to 
working with all the states. I know they all collectively come 
to town at least once a year and I certainly look forward to 
engaging with them and working with them. They implement the 
National Preservation Program on behalf of the Federal 
Government.
    Senator Capito. Right.
    Ms. Jorjani. They are assigned with, you know, primary, 
like nine primary tasks associated with implementing this 
National Preservation Program, a lot of which work with the 
National Park Service.
    I very much look forward to working to see how, again, 
digitization efforts can, you know, learn from best practices. 
I know there's lots of good states that have done very good 
things with digitization.
    Washington State would be an example and I know Wisconsin 
as well.
    I know the good work that the SHPOs, as they are known, do. 
And I very much look forward to working with them and having 
very open communication.
    Senator Capito. Well, I think the fact that you are going 
to be in a full-time position here is really, I think, one way 
that you are going to be able to capitalize on and build 
stronger relationships there with the continuity factor of 
having a full-time director.
    I wish you the best of luck. I certainly will be supportive 
of you and look forward to working with you.
    Thank you.
    Ms. Jorjani. Thank you.
    The Chairman. Thank you, Senator Capito.
    Just a couple more questions for you, Ms. Jorjani, and the 
first one relates to the Section 106 and the NEPA review 
process.
    There has been a long history of complaints that the 
authority under Section 106 has been abused in the NEPA 
environmental review process to either delay or even halt 
projects. We have heard from one water district that it was 
required to undergo a Section 106 analysis and pay mitigation 
because a pumping plant project was found to impact the 
concrete lining of an operating canal that was over 50 years 
old. So the historic property that was at issue here was a 50-
year-old concrete lining.
    Now, I look at that and it is like, wait a minute, this is 
not what we had intended. An example like that is one where we 
saw a delay to upgrades and upgrades would have improved 
operational efficiencies. But you know, when you engage in 
certain processes that add unnecessary or perhaps unreasonable 
cost to a project, oftentimes you look at them and say, it is 
just not worth it to go there.
    In light of some of the recent efforts by DOI and the U.S. 
Forest Service to streamline the environmental review process, 
what role do you think the Advisory Council can play to 
facilitate a more streamlined review process, still give the 
important input that is needed but making it more streamlined, 
more efficient and really make sure that these projects are 
completed in a timely fashion? How do we move forward with this 
and address the concerns that have been expressed?
    This is just one example, and I am sure you are familiar 
with a great many.
    Ms. Jorjani. I do hear several of these types of anecdotal, 
you know, stories related to Section 106. The intent of Section 
106 is certainly not to prevent progress such as that. It works 
to seek solutions, and it's with collaborative public input and 
with stakeholders.
    So, to me, it's important to get such information very 
early on in the process, have better information available 
early in the process, provide, perhaps it could be a training 
issue too, with regional staff, agencies or local staff of 
agencies, to better make efficient this process.
    If a project is proposed, Section 106 cannot stop it. You 
know, we need to look through the lens of that this project is 
going to go forward. What we need to do is address the issues 
at hand, see what we can do about them and work for the sake of 
the American public on making sure these deliverables are 
reachable.
    The Chairman. I think the concern is you state that Section 
106 can't be used to say go or no go on a project, but the 
practical reality on the ground is that if a project is delayed 
unreasonably, all that does is add to the cost. And so the 
decision is made, not coming from the Advisory Council to stop 
it, but the decision is made, look, this is just more trouble 
than it is worth and ultimately you miss out on, again, the 
opportunity to provide what would be those operational 
efficiencies.
    This is something that I know you are aware of, but I do 
think that when we look to the importance and the value of the 
Council and what your role will be, it is to look very directly 
at these to see how the process can be made more efficient, 
more streamlined and really more workable.
    Let me ask you one more question and this ties into issues 
of national security. The current Chairman of the Advisory 
Council has been a supporter of listing the Trestles surf break 
in San Diego County. Opponents of listing that surf break on 
the National Register of Historic Places are concerned that it 
could interfere with the marine training camp there at Camp 
Pendleton. In your view, does the National Historic 
Preservation Act sufficiently address national security 
concerns? Does the law offer adequate protection in this area? 
How do we balance this out, in your view? You want to preserve 
something, but you have a security aspect to it that needs to 
be considered as well.
    Ms. Jorjani. It certainly is.
    I certainly look forward to working with DoD on this issue. 
It appears that the National Defense reauthorization process 
annually does touch on certain issues related to national 
security and listings on the National Register.
    I plan as full-time Chair to actively monitor that and work 
with the stakeholders involved as well as the Federal 
Preservation Officer at the Department of Defense. It's not 
something I have been working on, of course, so if confirmed, I 
certainly look forward to looking into this further.
    The Chairman. Well, I think this may be one of those areas, 
again, where we have not had anybody in this position full-
time. We haven't really infused the Advisory Council in a way 
that allows for more of the ability to really weigh in and 
provide that level of guidance.
    My hope is that now that this position has been elevated, 
you are in a full-time role, that whether it is with the NEPA 
review or whether it is the national security initiatives, the 
expectation is you will provide for that level of review where 
appropriate and really have a voice.
    I have no further questions, so I will turn to Senator 
Hirono and then we will wrap up the hearing here.
    Senator Hirono. Thank you very much, Madam Chair.
    I ask this question of all nominees who come before any of 
my committees, so I will ask this of you.
    Since you became a legal adult, have you ever made unwanted 
requests for sexual favors or committed any verbal or physical 
harassment or assault of a sexual nature?
    Ms. Jorjani. No.
    Senator Hirono. Have you faced discipline or entered into a 
settlement related to this kind of conduct?
    Ms. Jorjani. No.
    Senator Hirono. Thank you.
    In the mid-1990s work was done to strengthen the National 
Historic Preservation Act in its implementing regulations to 
ensure that rights of American Indians, Alaska Natives and 
Native Hawaiians are explicitly addressed in the decision-
making process and ACHP was vital to helping develop meaningful 
consultation protocols for tribes and native organizations.
    What are your perspectives on ACHP's consultation process 
with these indigenous communities and how do you continue to 
build upon that work to ensure equitable participation to, 
well, by Native peoples?
    Ms. Jorjani. Thank you for that question.
    I know the Advisory Council has produced a wide range of 
consultation documents for quite some time. They've had a few 
Native American Advisory groups over the years. There's now a 
sitting tribal member on the board membership.
    If confirmed, I look forward to pouring through all those 
guidance documents and working with our tribal member on the 
board and learning more about this as we work government-to-
government with tribes.
    Senator Hirono. I think you are well aware that the history 
and culture in Hawaii is very different from that in Oklahoma 
or Florida or Maine or any of the indigenous peoples' culture.
    As Chair, will you commit to prioritizing and working 
closely with states to take their unique situations into 
consideration because often the perspectives of these groups 
are not necessarily taken into consideration nor are their 
voices heard. So I would want to make sure that you----
    Ms. Jorjani. Certainly, yes.
    I look forward to working with the Alaska Native 
Corporations and Native Hawaiian organizations.
    Senator Hirono. When--okay, hold on.
    So you may know that Hawaii recently experienced a severe 
flood event on the North Shore of Kauai. In fact, there was 
more rainfall in a 24-hour period on Kauai than in the entire 
history of our country. They got almost 50 inches of rain in 
that timeframe. It prompted a Presidential disaster 
declaration.
    Among the damage was the destruction of three historic 
bridges. It is my understanding the replacement of these 
bridges will be implemented within 30 days of the Presidential 
declaration and, per the Section 106 consultation process, once 
our stakeholders in Hawaii are notified, they will have seven 
days to provide comment. I have heard from people in the state 
that they are very concerned about the seven-day review window 
and will require consultation assistance.
    Does the ACHP generally grant requests for extensions? And 
as potential Chair of ACHP, do you believe it is important to 
provide this kind of flexibility and assistance to communities 
cleaning up from natural disasters?
    Ms. Jorjani. I know that the agencies usually or typically 
set these type of timeframes. So as full-time chair being based 
here on a day-to-day basis, if issues like that arise and if it 
impedes on the ability to, you know, for full stakeholder 
participation, I hope it would come to my attention.
    Senator Hirono. I think it is really important for you to 
be, for your organization to be, in very close contact with the 
affected parties in a state in these kinds of exigent 
circumstances. So I want to make sure that that commitment is 
there.
    Ms. Jorjani. Yes.
    Senator Hirono. When a federal agency fails to consider a 
full range of alternatives to minimize harm to historic 
properties, the ACHP is responsible for investigating 
complaints from the public and then advising the agency to take 
corrective action ahead of potential citizen lawsuits.
    Are you prepared to confront the Department of the Interior 
and their agencies when they fail to do their job regarding 
historic preservation?
    Ms. Jorjani. I will certainly work with the Department of 
the Interior.
    Senator Hirono. Well, they may have a different 
perspective. My question is whether you will be willing to hold 
your ground based on what your responsibilities are?
    Ms. Jorjani. With our responsibilities as an advisory role, 
I certainly look forward to advising.
    Senator Hirono. Can you give me, very briefly, examples in 
your professional life when you have stood up to pressure to do 
something that would have been against the public interest in 
your judgment?
    Ms. Jorjani. I typically like to collaborate with 
stakeholders to ensure that it is within the public interest. I 
don't see any----
    Senator Hirono. So you have never had a situation in your 
professional life where something was not in the public 
interest in your professional assessment where you said you are 
just not going to go along with it?
    Ms. Jorjani. I cannot think of an instance offhand, no.
    Senator Hirono. If you were confronted with such a 
circumstance with this Administration, would you stand your 
ground?
    Ms. Jorjani. I would, yes.
    Senator Hirono. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    We will allow other members to submit their questions for 
the record.
    Several were not able to join us here this morning, so I 
hope that you would attempt to respond to those as quickly and 
as promptly as possible so that we can proceed forward with 
this.
    Again, I thank you for your willingness to serve. I thank 
you for coming before the Committee. I thank those who are 
standing behind you to allow you this opportunity in public 
service, and we appreciate your work here this morning.
    Thank you so much.
    The Committee is adjourned.
    [Whereupon, at 10:50 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


				[all]
</pre></body></html>
